TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The 2008 Filing Season Was Generally
                  Successful Despite the Challenges of Late
                      and Unexpected Tax Legislation



                                      September 30, 2008

                              Reference Number: 2008-40-183




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 30, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The 2008 Filing Season Was Generally
                             Successful Despite the Challenges of Late and Unexpected Tax
                             Legislation (Audit # 200840018)

 This report presents the results of our review to evaluate whether the Internal Revenue Service
 (IRS) accurately processed individual paper and electronic tax returns1 in a timely manner during
 the 2008 Filing Season. The filing season is critical for the IRS because it is the time when most
 individuals file their income tax returns and contact the IRS if they have questions about specific
 tax laws or filing procedures. This audit focused on implementation of new tax law and
 administrative changes2 that affected Tax Year 2007 returns. In addition, we reviewed the
 corrective actions taken for the conditions identified in our review of the 2007 Filing Season3 to
 determine whether they were adequate.

 Impact on the Taxpayer
 Each year, legislated tax law changes create challenges for both the IRS and individual
 taxpayers. Moreover, the 2008 Filing Season presented additional challenges due to the late
 enactment of two significant tax laws. Overall, the IRS implemented these changes correctly
 with no significant delays in the processing of tax returns during the 2008 Filing Season.
 Through May 30, 2008, the IRS had received 144.2 million individual tax returns. Of those,
 approximately 86.7 million were electronically filed and approximately 57.5 million were filed
 on paper.


 1
   See Appendix VI for a glossary of terms.
 2
   Appendix V provides a synopsis of tax law and administrative changes that affected the 2008 Filing Season.
 3
   The 2007 Tax Filing Season Was Generally Successful, and Most Returns Were Timely and Accurately Processed
 (Reference Number 2007-40-187, dated September 21, 2007).
                      The 2008 Filing Season Was Generally Successful Despite
                       the Challenges of Late and Unexpected Tax Legislation




Synopsis
The 2008 Filing Season presented additional challenges for the IRS due to the late and
unexpected enactment of two significant tax laws.
    •   The Tax Increase Prevention Act of 20074 limited the number of taxpayers who would be
        subject to the Alternative Minimum Tax for Tax Year 2007.
    •   The Economic Stimulus Act of 20085 provided an economic stimulus payment to more
        than 130 million people.
In spite of the additional challenges, the IRS generally had a successful 2008 Filing Season.
Most key tax law and administrative changes were correctly implemented, and the IRS
completed processing returns on schedule and issued refunds within the required 45 calendar
days of the April 15, 2008, due date.6 Individual return receipts for electronic and paper returns
exceeded the IRS’ estimates and the receipts from the same time last year by more than
11 percent. The largest increase was in the number of paper U.S. Individual Income Tax Returns
(Form 1040A), which increased by almost 84 percent from the same time last year. This
increase was largely due to returns filed by taxpayers not normally required to file tax returns
who filed Tax Year 2007 returns so that they could receive the economic stimulus payment.
While the IRS was able to meet the challenges of late and unexpected enacted legislation and
accurately process most returns in a timely manner, we did identify opportunities to improve the
processing of some tax deductions:
•   Taxpayers improperly claimed and were allowed the Qualified Mortgage Insurance
    Premiums deduction.
•   Taxpayers age 70½ or older improperly claimed and were allowed the Individual Retirement
    Account deduction.
•   Taxpayers did not claim the sales tax deduction.
•   Taxpayers who improperly claimed a “dual benefit” for both the tuition and fees deduction
    and the Education Credit are not receiving the dual benefit. However, improvements still
    need to be made in processing these returns.




4
  Pub. L. No. 110-166, 121 Stat. 2461.
5
  Pub. L. No. 110-185, 122 Stat. 613.
6
  Internal Revenue Code Section 6611 (e) (2002).
                                                                                                   2
                   The 2008 Filing Season Was Generally Successful Despite
                    the Challenges of Late and Unexpected Tax Legislation




Recommendations
We recommended that the Commissioner, Wage and Investment Division:
   •   Ensure that the computer systems are programmed to identify taxpayer returns claiming
       the Qualified Mortgage Insurance Premiums deduction with Adjusted Gross Income that
       exceeds the maximum phase-out limitations. This should include programming to reject
       electronically filed returns with this condition and to forward paper returns to the Error
       Resolution System for correction.
   •   Ensure that the computer systems are programmed to identify taxpayer returns claiming
       Individual Retirement Account deductions for taxpayers age 70½ or older. This should
       include programming to reject electronic returns with this condition and to forward paper
       returns to the Error Resolution System for correction.
   •   Continue to inform taxpayers that they are eligible for a sales tax deduction if they
       itemize and do not claim a State income tax deduction, if the sales tax deduction is
       extended beyond Tax Year 2007. The possibility of calculating the sales tax deduction
       for taxpayers if it is not claimed or sending a notice to the affected taxpayers should also
       be considered.
   •   Revise or verify the computer programming to ensure all taxpayers claiming a dual
       benefit are identified if the tuition and fees deduction is extended beyond Tax Year 2007.
       This should include verifying the programming to forward paper returns with this
       condition to the Error Resolution System for correction.

Response
IRS management agreed with two of our four recommendations, partially agreed with one
recommendation, and disagreed with one recommendation. The IRS agreed to update its
programs to identify taxpayer returns improperly claiming the Qualified Mortgage Insurance
Premium deduction. When the Adjusted Gross Income exceeds the threshold, paper tax returns
will be forwarded to the Error Resolution System for correction and e-filed tax returns will be
rejected. The IRS also agreed to ensure employees are correctly addressing cases identified
where taxpayers improperly claimed a “dual benefit” for both the tuition and fees deduction and
the Education Credit. To assist in reducing employee errors, additional procedures were
implemented.
IRS management did not agree to update computer programs to identify taxpayer returns
claiming Individual Retirement Account deductions for taxpayers age 70½ or older. IRS
management cited that they did not have math error authority to enforce this condition. For the
partially agreed to recommendation, the IRS agreed to continue to inform taxpayers of their

                                                                                                      3
                   The 2008 Filing Season Was Generally Successful Despite
                    the Challenges of Late and Unexpected Tax Legislation



eligibility for the sales tax deduction and plans to add a cautionary statement to the 2008
instructions for the U.S. Individual Income Tax Return (Form 1040) Itemized Deductions
(Schedule A), similar to the one added in 2006. However, the IRS did not agree to calculate the
sales tax deduction for the taxpayer or to send a notice, citing that it cannot calculate the
deduction for sales tax with consistent accuracy because the deduction is based on the State in
which the taxpayer resided on January 1st of the tax year. Taxpayers can live in more than one
State in any tax year and seldom inform the IRS they have moved until they file a tax return.
IRS management agreed with the outcome measure associated with our recommendation to
identify taxpayer returns improperly claiming the Qualified Mortgage Insurance Premiums. IRS
management conditionally agreed with our outcome relative to the tuition and fees
deduction/Education Credit. The IRS did not agree with the potential outcome measures relative
to taxpayers age 70½ or older improperly claiming the Individual Retirement Account deduction
and taxpayers who did not claim the sales tax deduction. Management’s complete response to
the draft report is included as Appendix VII.

Office of Audit Comment
IRS management disagreed with our recommendation and associated outcome measure related to
identifying taxpayers who are age 70½ or older and are improperly claiming an Individual
Retirement Account deduction. However, management included an alternative approach it plans
to initiate to identify and address these cases. Consequently, we believe the outcome measure
remains valid. The IRS also disagreed with our outcome measure related to the number of
taxpayers entitled to the sales tax deduction as well as the associated amount of tax refunds.
Although management agrees with the audit results which identified taxpayers adversely affected
by not claiming the sales tax deduction, it objects to the use of an assumed tax rate and an
average deductible amount to quantify the outcome. Notwithstanding management’s position,
we continue to believe the methodology we used to identify these taxpayers and quantify the
outcome was appropriate.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                  4
                          The 2008 Filing Season Was Generally Successful Despite
                           the Challenges of Late and Unexpected Tax Legislation




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The 2008 Filing Season Was Completed in a Timely Manner, and
          Most Returns Were Accurately Processed....................................................Page 3
          Some Taxpayers Improperly Claimed and Were Allowed the
          Qualified Mortgage Insurance Premiums Deduction ...................................Page 7
                    Recommendation 1:........................................................Page 8

          Some Taxpayers Age 70½ or Older Improperly Claimed and Were
          Allowed the Individual Retirement Account Deduction ..............................Page 8
                    Recommendation 2:........................................................Page 10

          Many Taxpayers Did Not Claim the Sales Tax Deduction...........................Page 10
                    Recommendation 3:........................................................Page 13

          Improvements Have Been Made in Reducing the Number of
          Improperly Claimed “Dual Benefits” for Both the Tuition and
          Fees Deduction and the Education Credit.....................................................Page 14
                    Recommendation 4:........................................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
          Appendix IV – Outcome Measures...............................................................Page 22
          Appendix V – Overview of Tax Law Provisions and
          Administrative Changes Examined During the Review ...............................Page 25
          Appendix VI – Glossary of Terms................................................................Page 29
            The 2008 Filing Season Was Generally Successful Despite
             the Challenges of Late and Unexpected Tax Legislation



Appendix VII – Management’s Response to the Draft Report.....................Page 31
                    The 2008 Filing Season Was Generally Successful Despite
                     the Challenges of Late and Unexpected Tax Legislation




                                 Abbreviations

AGI                        Adjusted Gross Income
AMT                        Alternative Minimum Tax
e-filed; e-filing          Electronically filed; electronic filing
HSA                        Health Savings Accounts
IRA                        Individual Retirement Account (also known as Individual
                           Retirement Arrangement)
IRS                        Internal Revenue Service
I.R.C.                     Internal Revenue Code
QMIP                       Qualified Mortgage Insurance Premiums
TY                         Tax Year
                       The 2008 Filing Season Was Generally Successful Despite
                        the Challenges of Late and Unexpected Tax Legislation




                                            Background

The filing season1 is critical for the Internal Revenue Service (IRS) because it is the time when
most individuals file their income tax returns and contact the IRS if they have questions about
                                        specific tax laws or filing procedures. The IRS had received
                                        144.2 million individual tax returns as of May 30, 2008. Of
      The 2008 Filing Season            those, approximately 86.7 million were electronically filed
        presented additional            (e-filed) (an increase of 12.3 percent from this time in 2007),
   challenges for the IRS due to
        late and unexpected
                                        and approximately 57.5 million were filed on paper (an
   enactment of two significant         increase of 10.4 percent from this time in 2007). Among the
              tax laws.                 electronic filing (e-filing) options available for individual
                                        taxpayers, use of online e-filed returns continued to
                                        experience the fastest growth–from 22.2 million to
                                        26.4 million returns.
A significant challenge for the IRS in processing these tax returns is implementation of new tax
law changes.2 Each year, legislated tax law changes create challenges for both the IRS and
individual taxpayers. Before each filing season begins, the IRS must identify new tax law and
administrative changes and, where possible, revise the various tax forms, instructions, and
publications. The IRS must also reprogram its computer systems to ensure that returns are
accurately processed. The 2008 Filing Season presented additional challenges due to the late and
unexpected enactment of two significant tax laws:
•   The Tax Increase Prevention Act of 2007,3 signed on December 26, 2007, limited the number
    of taxpayers who would be subject to the
    Alternative Minimum Tax (AMT) for Tax
    Year (TY) 2007. The Act extended the
    allowance of personal credits against the AMT
    and increased the AMT exemption amounts to
    $44,350 for single individuals and $66,250 for
    married taxpayers filing jointly. This legislation
    provided AMT relief to an estimated 25 million
    taxpayers who would have been subject to higher
    taxes in TY 2007.



1
  See Appendix VI for a glossary of terms.
2
  Appendix V provides a synopsis of tax law and administrative changes that affected the 2008 Filing Season.
3
  Pub. L. No. 110-166, 121 Stat. 2461.
                                                                                                           Page 1
                         The 2008 Filing Season Was Generally Successful Despite
                          the Challenges of Late and Unexpected Tax Legislation



•     The Economic Stimulus Act of 2008,4 signed on February 13, 2008, was passed to energize
      the national economy. This legislation provided a stimulus payment generally ranging from
                      $300 to $1,200 to more than 130 million people. Individuals can receive up
                      to $600 and couples can receive up to $1,200, with an additional $300 for
                      each qualifying child. To receive a stimulus payment, an individual must file
                      a TY 2007 return with a valid Social Security Number. As of May 31, 2008,
                      the IRS had received about 7.7 million additional tax returns from individuals
                      who would not normally have been required to file returns.
During the 2008 Filing Season, the IRS processed individual income tax returns in five Wage
and Investment Division Submission Processing sites located throughout the country. All of the
five sites processed paper individual income tax returns, and all but the Atlanta, Georgia,
Submission Processing Site processed e-filed individual income tax returns. Both paper and
e-filed returns and related schedules are processed through the IRS computer systems and
recorded on each individual’s tax account at the Submission Processing sites. The IRS computer
systems are made up of a complex series of processing subsystems that are linked and
programmed nationally to check the validity and mathematical accuracy of the tax return data
provided. If an error is found, the taxpayer is sent a notice that asks for additional information or
explains any change that is made to the amount of tax due or to the refund.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta; the Submission Processing function offices in Lanham, Maryland, and Cincinnati, Ohio;
and the Austin Submission Processing Site during the period December 2007 through July 2008.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




4
    Pub. L. No. 110-185, 122 Stat. 613.
                                                                                              Page 2
                                            The 2008 Filing Season Was Generally Successful Despite
                                             the Challenges of Late and Unexpected Tax Legislation




                                                                       Results of Review

The 2008 Filing Season Was Completed in a Timely Manner, and Most
Returns Were Accurately Processed
The IRS had a successful 2008 Filing Season despite the challenges of the late and unexpected
enactment of legislation to extend relief from the AMT and to provide taxpayers with economic
stimulus payments. The IRS completed the processing of returns on schedule and issued refunds
within the required 45 calendar days of the April 15, 2008, due date.5 Total return receipts for
e-filed and paper returns exceeded the IRS’ estimates and the receipts from the same time last
year by more than 11 percent. The largest increase was in the number of paper U.S. Individual
Income Tax Returns (Form 1040A), which increased by almost 84 percent from the same time
last year. This increase was largely due to returns filed by taxpayers not normally required to file
tax returns who filed TY 2007 returns so they could receive the economic stimulus payment.
Figure 1 compares the numbers of e-filed and paper returns processed during the 2007 and
2008 Filing Seasons.
                 Figure 1: Comparison of the Volumes of Tax Returns6 Processed During
                                   the 2007 and 2008 Filing Seasons


               10,000,000
                9,000,000
                8,000,000
                7,000,000
                6,000,000
                5,000,000
                4,000,000
                3,000,000
                2,000,000
     Returns




                1,000,000
                      -
                                                    eb




                                                                                                                                                                               ay


                                                                                                                                                                                        ay
                           n


                                    n


                                             n




                                                              eb


                                                                       eb


                                                                                eb




                                                                                                                                                              ay


                                                                                                                                                                      ay
                                                                                                                                    pr


                                                                                                                                             pr


                                                                                                                                                      pr
                                                                                                                           pr
                                                                                        ar


                                                                                                 ar


                                                                                                          ar


                                                                                                                   ar
                        -Ja


                                 -Ja


                                          -Ja




                                                                                     6-M




                                                                                                                        3-A
                                                                                               -M


                                                                                                        -M


                                                                                                                 -M




                                                                                                                                                                             -M


                                                                                                                                                                                      -M
                                                                                                                                  -A


                                                                                                                                           -A


                                                                                                                                                    -A


                                                                                                                                                           1-M


                                                                                                                                                                   8-M
                                                 7-F


                                                            -F


                                                                     -F


                                                                              -F
                      17


                               24


                                        31




                                                          14


                                                                   21


                                                                            28




                                                                                                                                10


                                                                                                                                         17


                                                                                                                                                  24
                                                                                             13


                                                                                                      20


                                                                                                               27




                                                                                                                                                                           15


                                                                                                                                                                                    22




                                                         2008 Electronically File d Returns                         2008 Pape r File d Returns
                                                         2007 Electronically File d Returns                         2007 Pape r File d Returns


    Source: Our analysis of tax return processed data from the Individual Return Master File.


5
 Internal Revenue Code Section 6611 (e) (2002).
6
 This analysis includes U.S. Individual Income Tax Returns (Forms 1040 and 1040A), and Income Tax Return for
Single and Joint Filers With No Dependents (Form 1040EZ).
                                                                                                                                                                                             Page 3
                     The 2008 Filing Season Was Generally Successful Despite
                      the Challenges of Late and Unexpected Tax Legislation



In addition, there continues to be a steady growth in e-filing, with the largest increase coming
from taxpayers who used the Free File Program (22.58 percent). Figure 2 provides comparative
statistics for the 2007 and 2008 Filing Seasons.
                      Figure 2: Comparative Filing Season Statistics

                                                        2007 Actual       2008 Actual
                                                        As of June 1      As of May 30
                                                             (in               (in
    Cumulative Filing Season Data                       thousands)         thousands)    % Change
    Individual Income Tax Returns:
    Receipts                                               129,280          144,150       11.50%
    Paper Returns Received                                  52,070          57,476        10.38%
    Electronic Returns Received                             77,210          86,674        12.26%
    Filed Through Tax Practitioner                          55,119          60,231        9.27%
    Filed From Home Computer (includes Free File)           22,191          26,444        19.17%
    Taxpayers Using Free File                               3,795            4,652        22.58%
Source: IRS 2008 Filing Season Weekly Reports. Percentages are rounded.

In most instances, the IRS correctly implemented the key tax law and administrative changes for
the 2008 Filing Season. Tax products required for the preparation of individual income tax
returns were correctly updated with new, expiring, or pending tax law provisions, including the
credit for prior year minimum tax which was made refundable. We did identify two
publications, Tax-Sheltered Annuity Plans (403(b) Plans) For Employees of Public Schools and
Certain Tax-Exempt Organizations (Publication 571) and Your Federal Income Tax (Publication
17), with incomplete updates. Publication 571 had not been updated with regard to increased
Adjusted Gross Income (AGI) limitations for the Retirement Savings Contributions Credit, and
Publication 17 did not address whistleblower fees. After we notified the IRS, it corrected
Publication 571 immediately online and agreed to correct Publication 17 next year.
Despite the challenges of the late and unexpected enacted legislation, the IRS properly
implemented the following tax law and administrative changes:
•    Changes to the AMT as a result of the Tax Increase Prevention Act of 2007. These changes
     included increasing the AMT exemption amounts for TY 2007 to $66,250 for Married Filing
     Jointly or Qualifying Widow(er), $44,350 for Single or Head of Household, and $33,125 for
     Married Filing Separately taxpayers.




                                                                                             Page 4
                         The 2008 Filing Season Was Generally Successful Despite
                          the Challenges of Late and Unexpected Tax Legislation



•       Increased AGI limits for the Retirement Savings Contributions Credit and Individual
        Retirement Accounts (IRA) as a result of the Pension Protection Act of 2006.7
•       Changes to Health Savings Accounts (HSA) as a result of the Tax Relief and Health Care Act
        of 2006.8 These changes included the contribution limitation not being reduced for part-year
        coverage, the repeal of the annual deductible limitation on HSA contributions, and a
        one-time rollover of the balance or an amount less than the balance of a Health
        Reimbursement Arrangement or Health Flexible Spending Arrangement into an HSA.
•       Increased Earned Income Tax Credit, standard deduction, and exemption amounts.
However, while the IRS was able to meet the challenges created by the late and unexpected
enacted legislation and accurately process most returns in a timely manner, we did identify
opportunities to improve the processing of some tax deductions. These include:
•       Taxpayers improperly claimed and were allowed the Qualified Mortgage Insurance
        Premiums (QMIP) deduction.
•       Taxpayers age 70½ or older improperly claimed and were allowed the IRA deduction.
•       Taxpayers did not claim the sales tax deduction.
•       Taxpayers improperly claimed and were allowed a “dual benefit” for both the tuition and fees
        deduction and the education credit.

Late enactment of the AMT legislation
The IRS began processing paper tax returns on January 7, 2008, and e-filed tax returns on
January 11, 2008. However, to achieve these dates, the IRS did not process until
February 11, 2008, tax returns that included the
following five tax forms affected by the AMT               Processing of some tax returns
legislation:                                                    was delayed due to late
                                                                     enactment of the AMT
    •     Child and Dependent Care Expenses for                         legislation.
          Form 1040A Filers (Schedule 2 (Form 1040A)).
    •     District of Columbia First-Time Homebuyer
          Credit (Form 8859).
    •     Education Credits (Hope and Lifetime Learning Credits) (Form 8863).
    •     Mortgage Interest Credit (Form 8396).
    •     Residential Energy Credits (Form 5695).



7
    Pub. L. No. 109-280, 120 Stat. 780.
8
    Pub. L. No. 109-432, 120 Stat. 2922.
                                                                                              Page 5
                      The 2008 Filing Season Was Generally Successful Despite
                       the Challenges of Late and Unexpected Tax Legislation



Delaying the processing of tax returns with these Forms allowed the IRS time to update and test
its systems for the needed changes to the Forms without major disruptions to other return
processing operations. To prevent these Forms from being e-filed before February 11, 2008, the
IRS put in place programming that would reject a tax return with any of the Forms. A total of
90,262 returns with these 5 Forms were rejected through February 11, 2008. The processing of
paper tax returns filed with any of these Forms before February 11 was suspended by the IRS
until its systems were ready to process the Forms.

Processing the economic stimulus payments
Taxpayers had to file a Tax Year 2007 return to receive the economic stimulus payment. No
other action, form, or call was necessary. The IRS determined the taxpayer’s eligibility,
calculated the stimulus payment amount, and sent the payment. The Department of the Treasury
estimated up to 20 million additional tax returns would be filed by individuals who were not
normally required to file tax returns so they could receive the economic stimulus payment.
However, as of May 31, 2008, the IRS had received only about 7.7 million paper and e-filed
“stimulus-only” returns.
These additional returns did create additional volumes of error returns. Much of this increase
came from Forms 1040A, which traditionally have higher error rates. Paper receipts of this
Form increased by 84 percent over the same time last year, and most of this increase was due to
the economic stimulus payments. To ensure that the workload was balanced and that returns
were processed in a timely manner, the IRS shipped returns between Submission Processing
sites.
We are performing a series of reviews to assess all aspects of the IRS’ planning for and issuance
of stimulus payments.9

Use of split refunds
Beginning in 2007, an individual taxpayer could file a Direct Deposit of Refund to More Than
One Account (Form 8888) to elect to have his or her Federal income tax refund split and
electronically deposited into up to three accounts (e.g., checking, savings, or IRA). In addition,
the accounts could be with up to three different United States financial institutions, including
banks, brokerage firms, or credit unions.
As of May 30, 2008, a total of 225,867 Forms 8888 had been filed to split refunds totaling
$816.9 million. This represents a 180 percent increase over the same period last year when only
80,673 Forms 8888 had been received. The increase is probably attributable to the addition of

9
  The economic stimulus payments were not included in this review. The Treasury Inspector General for Tax
Administration issued two reports on the economic stimulus payments: Evaluation of Planning Efforts for the
Issuance of Economic Stimulus Payments (Reference Number 2008-40-149, dated July 31, 2008); and Evaluation of
the Computation of Economic Stimulus Payments (Reference Number 2008-40-174, dated September 4, 2008).
                                                                                                      Page 6
                       The 2008 Filing Season Was Generally Successful Despite
                        the Challenges of Late and Unexpected Tax Legislation



this option in tax preparation software. Last year, two of the largest providers of tax preparation
software did not offer the split refund option in their software.

Some Taxpayers Improperly Claimed and Were Allowed the Qualified
Mortgage Insurance Premiums Deduction
Some taxpayers improperly claimed and were allowed the QMIP deduction even though their
AGIs exceeded income phase-out limitations. Through May 30, 2008, we had identified
4,988 taxpayers who incorrectly claimed more than $7.4 million in QMIP deductions. We
estimate that the revenue loss was approximately $1.4 million.10
The Tax Relief and Health Care Act of 2006 amended the tax code to allow premiums paid or
accrued for “qualified mortgage insurance” with respect to home acquisition debt on a qualified
home to be deductible as an itemized deduction. The deductible amount is reduced by
10 percent for every $1,000 ($500 for Married Filing Separately) by which AGI exceeds
$100,000 ($50,000 for Married Filing Separately). The deduction cannot be taken if the AGI is
more than $109,000 ($54,500 for Married Filing Separately). Originally, the QMIP deduction
was going to be available only during TY 2007. However, legislation passed at the end of
Calendar Year 2007 extended the deduction through December 31, 2010.
Line 13 was changed on the Itemized Deductions and Interest and Dividend Income
(Schedules A&B (Form 1040)11) to enable taxpayers to claim this deduction. Figure 3 provides
an example of where this deduction is claimed on Schedule A.
     Figure 3: Example of Schedule A Line 13 Used to Claim the QMIP Deduction




Source: 2007 Schedules A&B (Form 1040).

Taxpayers were allowed the erroneously claimed QMIP deduction because IRS computer
systems were not programmed to identify individuals claiming the QMIP deduction when their


10
   This was calculated using a method based on average taxable incomes per filing status, which resulted in an
average tax rate of 18.3 percent. See Appendix IV for details.
11
   U.S. Individual Income Tax Return.
                                                                                                            Page 7
                        The 2008 Filing Season Was Generally Successful Despite
                         the Challenges of Late and Unexpected Tax Legislation



AGIs exceeded the income limitations. In addition, IRS employee guidance was not updated
regarding how to work cases in which taxpayers claimed a QMIP deduction with an AGI
exceeding the income limitations. Although IRS procedures were not updated, tax products to
alert taxpayers of the AGI limitations on this deduction were correctly updated.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should ensure that
the computer systems are programmed to identify taxpayer returns claiming the QMIP deduction
with AGI that exceeds the maximum phase-out limitations. This should include programming to
reject e-filed returns with this condition and to forward paper returns to the Error Resolution
System for correction.
         Management’s Response: IRS management agreed with this recommendation.
         Submission Processing will input a Unified Work Request requesting programming that
         limits the deduction for the QMIP so that when the AGI exceeds the threshold, the paper
         return will be forwarded to the Error Resolution System for correction. In addition,
         programming will be requested to reject e-filed tax returns for this condition.

Some Taxpayers Age 70½ or Older Improperly Claimed and Were
Allowed the Individual Retirement Account Deduction
During the 2006 and 2007 Filing Seasons, we reported that taxpayers age 70½ or older
improperly claimed the IRA deduction. For the 2008 Filing Season, as of May 30, 2008, we had
identified 1,779 taxpayers age 70½ or older who had improperly claimed and were allowed
nearly $3.9 million in IRA deductions.12 The estimated revenue loss was $584,225.13 Figure 4
compares the numbers of taxpayer accounts identified from the last three filing seasons.




12
  These exceptions did take into account the age of the spouse if the taxpayers filed as Married Filing Jointly.
13
  We used a conservative 15 percent tax rate to compute the estimated revenue loss (i.e., 15 percent times
$3,894,830 of IRA deductions equals $584,225). See Appendix IV for details.
                                                                                                              Page 8
                          The 2008 Filing Season Was Generally Successful Despite
                           the Challenges of Late and Unexpected Tax Legislation



              Figure 4: Taxpayers Age 70½ or Older Claiming the IRA Deduction
                                in Filing Seasons 2006-2008

                          Filing          Taxpayers           Amount of            Estimated
                         Season           Improperly             IRA               Revenue
                                         Claiming the         Deductions             Loss
                                          Deduction

                           2006               1,826            $4,009,485           $601,423

                           2007               1,693            $3,533,993           $530,099

                           2008               1,779            $3,894,830           $584,225

                          Totals              5,298           $11,438,308          $1,715,747
                     Source: Our analysis of returns processed with IRA deductions for the 2006,
                     2007, and 2008 Filing Seasons.

 Some taxpayers are also improperly claiming the IRA deduction for more than 1 year. Of the
 5,298 taxpayer accounts identified, we found that 563 taxpayers claimed the deduction for
                                   multiple years as follows:
  An IRA deduction cannot be                 •     400 taxpayers claimed improper deductions totaling
taken if the individual is age 70½                 more than $1.7 million for 2 different years.
  or older before the end of the
   taxable year for which the                •     163 taxpayers claimed improper deductions totaling
      contribution is made.                        more than $909,000 for all 3 years.
                                    The IRA deduction was increased to $5,000 for a taxpayer age
                                    50 or older at the end of 2006. However, the Internal Revenue
 Code (I.R.C.)14 states that no deduction will be allowed as a benefit to any individual who is age
 70½ or older before the end of the taxable year for which the contribution is made.
 In our previous reviews of this deduction, we believed that the IRA Deduction Worksheet
 instructions did not clearly inform taxpayers that they could not deduct any contributions made
 to a traditional IRA if they were age 70½ or older at the end of the year. We previously
 recommended that the IRA Deduction Worksheet be revised in all the tax instructions where this
 Worksheet was included to clearly state that taxpayers age 70½ or older could not take the IRA
 deduction. The IRS revised the Worksheet for the 2007 Filing Season but not to the extent that
 we had recommended.
 When we reported this same issue for the 2007 Filing Season, we again recommended that the
 IRA Deduction Worksheet clearly state that taxpayers age 70½ or older cannot take the IRA


 14
      26 U.S.C. § 219 (2004).
                                                                                                   Page 9
                         The 2008 Filing Season Was Generally Successful Despite
                          the Challenges of Late and Unexpected Tax Legislation



deduction. The IRS agreed with our recommendation and further revised the IRA Deduction
Worksheet and its instructions for the 2008 Filing Season to thoroughly emphasize that taxpayers
age 70½ or older cannot take the deduction. Figure 5 provides the cautionary statement added to
the Worksheet.
     Figure 5: Caution Included in the Form 1040 Instructions for the IRA Deduction



Source: 2007 Form 1040 instructions.

We believe that the current IRA Deduction Worksheet instructions are clear and no other
changes are required. However, taxpayers continue to improperly claim the IRA deduction.

Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should ensure that
the computer systems are programmed to identify taxpayer returns claiming IRA deductions for
taxpayers age 70½ or older. This should include programming to reject e-filed returns with this
condition and to forward paper returns to the Error Resolution System for correction.
           Management’s Response: IRS management did not agree with this recommendation
           or the related outcome measure. They do not currently have math error authority to
           enforce this condition because it requires information not present on the tax return per
           Section 6213 of the Internal Revenue Code. However, Submission Processing will
           partner with the Wage and Investment Division Compliance function and Small
           Business/Self-Employed Division Campus Compliance function to determine the
           feasibility of identifying such instances during processing and assigning an unallowable
           code for an Examination review.
           Office of Audit Comments: While management disagrees with the recommendation
           and associated outcome measure, they addressed the intent of the recommendation by
           providing an alternative approach they plan to initiate to identify and address these cases.
           Consequently, we believe the outcome measure remains valid.

Many Taxpayers Did Not Claim the Sales Tax Deduction
The American Jobs Creation Act of 200415 was enacted in October 2004 and allowed taxpayers
who itemize deductions the option of claiming either State and local sales taxes or State and local
income taxes as a deduction. This legislation allowed the deduction in TYs 2004 and 2005. The


15
     Pub. L. No. 108-357, 118 Stat. 1418.
                                                                                               Page 10
                     The 2008 Filing Season Was Generally Successful Despite
                      the Challenges of Late and Unexpected Tax Legislation



sales tax deduction is most advantageous to taxpayers living in the seven States16 with no State
income tax (because they paid no State income tax and therefore would otherwise be unable to
take any deduction). Any taxpayer who itemizes deductions and does not claim a State income
tax deduction is eligible to take the sales tax deduction. The deduction was extended through
TY 2007 in the late passage of the Tax Relief and Health Care Act of 2006. Presently, Congress
is considering legislation to extend this deduction or to
make it permanent.                                              Almost 1.8 million eligible
Many eligible taxpayers continued to not claim the             taxpayers did not claim sales tax
                                                                  deductions that could have
sales tax deduction. For the 2005 through 2007 Filing            resulted in $438 million in tax
Seasons, we reported that significant and increasing             refunds for these individuals.
numbers of eligible taxpayers did not claim the sales
tax deduction.17 For the 2008 Filing Season, the
number of eligible taxpayers decreased by 14 percent but was still significant–almost 1.8 million
eligible taxpayers failed to claim the sales tax deduction as of May 30, 2008. We determined
that these taxpayers are entitled to a potential $2.9 billion in missed deductions. Based on a
conservative 15 percent tax rate, these taxpayers are entitled to a potential $438 million in tax
refunds.18
Fortunately for these taxpayers, it is not too late to claim the deductions for which they are
eligible. These taxpayers have the right to file amended tax returns and claim the missed
deductions. Given that almost 1.8 million taxpayers might be entitled to as much as $438 million
in tax refunds for TY 2007, we believe that the IRS should notify these taxpayers that they
appear to be eligible for this deduction and could file amended tax returns to claim it.
Figure 6 illustrates the steady rise from TY 2004 to TY 2006 in the number of eligible taxpayers
who did not claim the deduction. In TY 2007, the number fell slightly to 1.8 million eligible
taxpayers. This was a decrease of 14 percent from TY 2006. Cumulatively, 6.4 million
taxpayers who were eligible to claim the sales tax deduction have not claimed it thus far (some
taxpayers might be included more than once in this total if they did not claim the sales tax
deduction in more than 1 year).




16
   Alaska, Florida, Nevada, South Dakota, Texas, Washington, and Wyoming.
17
   Individual Income Tax Returns Were Timely Processed in 2005; However, Implementation of Tax Law Changes
Could Be Improved (Reference Number 2006-40-024, dated December 2005), Individual Tax Returns Were Timely
Processed in 2006, but Opportunities Exist to Improve Verification of Certain Tax Deductions (Reference
Number 2006-40-164, dated October 10, 2006), and The 2007 Tax Filing Season Was Generally Successful, and
Most Returns Were Timely and Accurately Processed (Reference Number 2007-40-187, dated September 21, 2007).
18
    See Appendix IV for details.
                                                                                                  Page 11
                      The 2008 Filing Season Was Generally Successful Despite
                       the Challenges of Late and Unexpected Tax Legislation



           Figure 6: Number of Eligible Taxpayers Who Did Not Claim the
                      Sales Tax Deduction for TYs 2004-2007


               2.5

                  2                                           2.1 M
                                                                               1.8 M
               1.5
                                             1.4 M
                  1
                            1.1 M

               0.5

                  0
                        TY 2004          TY 2005         TY 2006          TY 2007

                      6.4 Million Taxpayers Did Not Claim the Sales Tax
                         Deduction When Eligible More Than 4 Years

         Source: Our electronic analysis of returns processed without the State and local sales tax
         deduction for TYs 2004-2007.

The original legislation that created the sales tax deduction allowed the deduction for only
TYs 2004 and 2005. However, subsequent legislation passed in late December 2006 extended
this deduction through TY 2007. The timing of this legislation did not allow the IRS to change
tax forms or instructions, and the guidance on how to take the deduction had already been
removed from the overall instructions for Schedules A&B (Form 1040). In addition, the IRS had
removed the checkboxes on Line 5 separating State and local income taxes from sales taxes.
Corrective actions in response to recommendations we made during subsequent reviews are not
ensuring that eligible taxpayers are claiming the sales tax deduction. These actions included:
•   Revising the instructions for Schedules A&B (Form 1040) to include the Optional State Sales
    Tax Tables and instructions and providing the general State sales tax rate used to construct
    the tax tables for each State.
•   Developing a web-based version of the Sales Tax Calculator that would be available on
    IRS.gov.
•   Developing a communication strategy to inform taxpayers that they are eligible for a sales
    tax deduction if they itemize and do not claim a State tax deduction.


                                                                                                      Page 12
                    The 2008 Filing Season Was Generally Successful Despite
                     the Challenges of Late and Unexpected Tax Legislation



For the 2008 Filing Season, taxpayers had all the tools needed to calculate the sales tax
deduction, but some still did not claim this tax benefit. We did identify a decrease from last year
in the number of taxpayers not claiming the sales tax deduction, but the number is still higher
than in the first 2 years the deduction was in effect. We believe that these taxpayers should be
notified that they are eligible for this tax benefit as intended by Congress when the legislation
was passed and extended.

Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should continue to
inform taxpayers that they are eligible for a sales tax deduction if they itemize and do not claim a
State income tax deduction, if the sales tax deduction is extended beyond TY 2007. The
possibility of calculating the sales tax deduction for the taxpayer if it is not claimed or sending a
notice to the affected taxpayers should also be considered.
       Management’s Response: IRS management partially agreed with this
       recommendation but disagreed with the related outcome measurement. They agreed to
       continue to inform taxpayers of their eligibility for the sales tax deduction and plan to add
       a caution to the 2008 Instructions for Schedule A (Form 1040), similar to the one added
       in 2006, informing taxpayers that:
           •   The sales tax deduction expired in 2007.
           •   Congress was considering legislation to extend that deduction.
           •   The IRS web site will explain how to claim the deduction, if it is extended.
       They do not agree to calculate the sales tax deduction for the taxpayer or to send a notice.
       Submission Processing cannot calculate the deduction for sales tax with consistent
       accuracy because the deduction is based on the State in which the taxpayer resided on
       January 1st of the tax year. Tax rates vary from State to State and taxpayers may live in
       more than one State in any tax year and seldom inform the IRS they have moved until
       they file a tax return. Thus, the IRS disagrees with the outcome measure because it
       objects to the use of an assumed tax rate and an average deductible amount to quantify
       the outcome.
       Office of Audit Comment: We believe that the methodology used to identify these
       taxpayers and quantify the outcome was appropriate and provided a reasonable estimate
       of the $438 million tax effect. We assumed a conservative tax rate of 15 percent and an
       average deduction specifically derived for the 1.8 million taxpayers identified in the
       7 States that did not claim either a State income tax deduction or sales tax deduction.




                                                                                             Page 13
                      The 2008 Filing Season Was Generally Successful Despite
                       the Challenges of Late and Unexpected Tax Legislation



Improvements Have Been Made in Reducing the Number of
Improperly Claimed “Dual Benefits” for Both the Tuition and Fees
Deduction and the Education Credit
We have reported this issue for the last 5 years, and the corrective actions implemented in
response to our 2007 Filing Season report19 have considerably decreased the number of taxpayers
claiming a dual benefit. However, through May 30, 2008, we had identified 3,911 paper returns
that claimed both the Education Credit and the tuition and fees deduction. These taxpayers
claimed Education Credits of approximately $3.9 million and tuition and fees deductions of more
than $10.7 million. Assuming that all 3,911 taxpayers received an erroneous tax benefit from
only the tuition and fees deduction, the estimated loss of tax revenue is more than $1.6 million
using a conservative estimate of a 15 percent tax rate.20
                                           In response to one of our previous recommendations,
     Creation of a new form to report      the IRS created a new form to capture information
      tuition and fees resulted in a       relative to tuition and fees. The Tuition and Fees
  decrease in the number of taxpayers      Deduction (Form 8917) now has the information
   improperly claiming both the tuition
       and fees deduction and the          needed to enable the IRS to detect taxpayers who
            Education Credit.              e-filed and improperly claimed both the tuition and
                                           fees deduction and the Education Credit for the same
                                           student. This verification process resulted in nearly
60,000 e-filed returns being rejected through May 29, 2008. These returns were sent back to the
originating provider for correction.
However, the rejection process used for e-filed returns is not available for paper returns. We
were unable to verify that the IRS has a program to identify taxpayers who file paper returns and
erroneously claim the dual benefit.
The Economic Growth and Tax Relief Reconciliation Act of 200121 created a new
“above-the-line” deduction for tuition and fees that was available to taxpayers beginning in
TY 2003. The deduction expired at the end of TY 2005. However, this provision of the Act was
extended to the end of TY 2007 in the Tax Relief and Health Care Act of 2006. Presently,
Congress is considering legislation to extend this deduction or to make it permanent.
For TY 2007, taxpayers are allowed to take a deduction of up to $4,000 for qualified tuition and
fees paid for the taxpayer, his or her spouse, or his or her dependent(s). Taxpayers who claim an
Education Credit are required to complete Form 8863 and to identify by name and Social
Security Number the student for whom the Education Credit is being claimed. For TY 2007,

19
   The 2007 Tax Filing Season Was Generally Successful, and Most Returns Were Timely and Accurately Processed
(Reference Number 2007-40-187, dated September 21, 2007).
20
   See Appendix IV for details.
21
   Pub. L. No. 107-16, 115 Stat. 38.
                                                                                                    Page 14
                   The 2008 Filing Season Was Generally Successful Despite
                    the Challenges of Late and Unexpected Tax Legislation



taxpayers who claim the tuition and fees deduction are required to complete Form 8917 and to
provide the same information as that required on Form 8863. However, taxpayers may not
receive a dual benefit by taking both the tuition and fees deduction and the Education Credit for
the same student in the same year. If the Education Credit is elected, the tuition and fees
deduction is not allowed.

Recommendation
Recommendation 4: The Commissioner, Wage and Investment Division, should revise or
verify the computer programming to ensure all taxpayers claiming a dual benefit are identified if
the tuition and fees deduction is extended beyond Tax Year 2007. This should include testing
the programming to forward paper returns with this condition to the Error Resolution System for
correction.
       Management’s Response: IRS management agreed with this recommendation and
       conditionally agreed with the related outcome measure. Current programming and the
       Submission Processing Internal Revenue Manual procedures associated with the new
       Form 8917 have considerably reduced the processing of these erroneous claims. A
       review of 14 percent of the accounts we provided to the IRS demonstrated that
       100 percent of the accounts were in Error Resolution for correction and were a result of
       employee error. To assist in reducing the employee errors, the IRS implemented
       procedures on August 18, 2008, instructing the Code and Edit processing area to check
       tax returns claiming both the credit and the deduction for the dual benefit conditions.
       Additionally, alerts will be made during the filing season emphasizing the current
       instructions.




                                                                                          Page 15
                       The 2008 Filing Season Was Generally Successful Despite
                        the Challenges of Late and Unexpected Tax Legislation



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of the review was to evaluate whether the IRS accurately processed
individual paper and electronic tax returns1 in a timely manner during the 2008 Filing Season.
The audit focused on implementation of new tax law changes and administrative changes2 that
affected TY 2007 tax returns. In addition, we reviewed the corrective actions taken for the
conditions identified in our review of the 2007 Filing Season3 to determine whether they were
adequate. To accomplish our objective, we:
I.      Determined whether the IRS prepared for the 2008 Filing Season by taking the necessary
        steps to implement new, expiring, or pending tax law provisions into the tax products
        required for the preparation of individual income tax returns.
        A. Identified new tax law provisions pertaining to individual taxpayers for TY 2007 and
           reviewed the IRS Legislative Implementation Tracking System to identify the tax
           products affected by the new tax law provisions. We reviewed the entire available
           population of 45 TY 2007 draft tax products and 71 final tax products.
        B. Identified pending legislation, such as the AMT legislation, to determine what
           preparations had been made by the IRS and what effect the legislation could have on
           the 2008 Filing Season.
II.     Determined whether the IRS correctly implemented new tax legislation that affected the
        processing of individual tax returns during the 2008 Filing Season.
        A. Used 100 percent computer analysis of TY 2007 individual income tax returns
           processed nationally on the Individual Return Transaction File between January 1 and
           May 30, 2008,4 to identify returns affected by recent tax legislation and administrative
           changes. We used random sampling for some tests to ensure that each return had an
           equal chance of being selected. We also used judgmental sampling if we needed to

1
  See Appendix VI for a glossary of terms.
2
  See Appendix V for an overview of the new tax law provisions and administrative changes examined during this
review.
3
  The 2007 Tax Filing Season Was Generally Successful, and Most Returns Were Timely and Accurately Processed
(Reference Number 2007-40-187, dated September 21, 2007).
4
  To assess the reliability of computer-processed data, programmers in the Treasury Inspector General for Tax
Administration Office of Information Technology validated the data that were extracted, and we verified the
appropriate documentation. Judgmental samples were selected and reviewed to ensure that the amounts presented
were supported by external sources. As appropriate, data in the selected data records were compared to the physical
tax returns to verify that the amounts were supported.
                                                                                                          Page 16
        The 2008 Filing Season Was Generally Successful Despite
         the Challenges of Late and Unexpected Tax Legislation



ensure that the original returns could be quickly obtained to evaluate the accuracy of
processing. We determined whether changes to tax products were correctly
implemented in return processing systems at the Submission Processing sites by
assessing the accuracy of returns processed with the following changes.
1. Electronically identified 64,133 returns processed with an amount on Line 2 of
   the Health Savings Accounts (HSAs) (Form 8889) through February 15, 2008,
   and reviewed a random sample of 30 of these returns for processing accuracy.
   We also reviewed a random sample of 10 of the 2,495 returns processed through
   February 15, 2008, with amounts on Part III, Lines 18 through 22 of Form 8889.
2. Electronically identified 2,374,990 returns processed with a Credit for Qualified
   Retirement Savings Contributions (Form 8880) through February 15, 2008, and
   selected a random sample of 40 returns. We reviewed 30 of these returns for
   processing accuracy.
3. Electronically identified 436,401 returns processed with a QMIP deduction on
   Line 13 of the Itemized Deductions and Interest and Dividend Income
   (Schedules A&B) of the U.S. Individual Income Tax Return (Form 1040) through
   February 15, 2008, and reviewed a random sample of 40 returns for processing
   accuracy. After problems were identified, we electronically identified the entire
   population of 1,605,421 returns claiming the deduction through May 30, 2008,
   and identified 4,988 that had incorrectly claimed the deduction.
4. Electronically identified 312,582 returns processed through March 28, 2008, on
   which the taxpayer claimed an IRA deduction when his or her AGI was within the
   phase-out range for the filing status claimed. We selected a random sample of 40
   of these returns to review for processing accuracy.
5. Electronically identified 6,868 returns processed with a refundable credit for prior
   year AMT through February 15, 2008, and researched a judgmental sample of
   40 returns for accuracy. Because of inadequate information to track the
   carry-forward amounts, we reviewed return information for only eight of these
   returns for accuracy.
6. Reviewed return information for a judgmental sample of 30 of the 329 returns
   processed through February 15, 2008, on which the taxpayer claimed an amount
   that exceeded the maximum Earned Income Tax Credit based on filing status,
   number of qualifying children, and AGI limit to verify whether the returns were
   accurately processed.
7. Electronically analyzed 33,249,847 returns processed through February 15, 2008,
   and identified 503 returns with unusual deduction amounts and 242 returns with
   unusual exemption amounts. We confirmed whether the correct amounts were

                                                                               Page 17
                     The 2008 Filing Season Was Generally Successful Despite
                      the Challenges of Late and Unexpected Tax Legislation



                used when the returns were processed at the Austin, Texas, Submission
                Processing site.
            8. Electronically identified 2,630,312 returns processed with the AMT through
               May 30, 2008. We reviewed the findings in a prior report5 on the calculation of
               the AMT and reviewed the computer programming changes to determine whether
               they were updated with the new exemption amounts for TY 2007.
        B. Determined the numbers of taxpayers affected by the new tax legislation identified in
           Step I.A. by counting the numbers of returns and dollar amounts of the applicable
           deductions or credits claimed by taxpayers.
III.    Determined whether the IRS monitoring systems indicated that individual returns were
        being processed accurately and in a timely manner.
        A. Monitored various Submission Processing site production reports, inventory reports,
           and return error inventories between January 25 and May 30, 2008, for key indicators
           of return processing and compared the statistics to those for the 2007 Filing Season.
        B. Monitored the IRS Program Completion Date reports from May 1 through
           May 14, 2008, to determine whether the Submission Processing sites processed all
           refund returns in a timely manner.
        C. Computer analyzed filing patterns to evaluate whether processing inventories were
           adversely affected by taxpayers who filed returns at the wrong Submission Processing
           sites.
        D. Monitored weekly 2008 Filing Season Wage and Investment Division Production
           meetings between January 24 and June 18, 2008, and monitored the IRS Submission
           Processing function web site, the IRS web site (IRS.gov), and other applicable web
           sites through April 30, 2008, to identify potentially significant issues.
IV.     Determined whether the IRS had corrected problems identified in the 2007 Filing Season.
        From returns processed by the Submission Processing sites between January 1 and
        May 30, 2008, we electronically identified TY 2007 returns that met specific criteria.
        A. Identified 1,779 returns through May 30, 2008, on which taxpayers age 70 ½ or older
           received the IRA deduction.



5
 Procedures Were Not Always Followed When Resolving Alternative Minimum Tax Discrepancies (Reference
Number 2008-40-146, dated July 30, 2008).




                                                                                                 Page 18
           The 2008 Filing Season Was Generally Successful Despite
            the Challenges of Late and Unexpected Tax Legislation



B. Identified 1,780,985 returns processed through May 30, 2008, on which taxpayers did
   not claim the State sales tax deduction.
C. Identified 3,911 paper returns processed through May 30, 2008, on which taxpayers
   claimed both the Education Credit and the tuition and fees deduction.
D. Identified 225,867 Direct Deposits of Refund to More Than One Account
   (Form 8888) processed through May 30, 2008, used to split refunds totaling
   $816.9 million.




                                                                                Page 19
                  The 2008 Filing Season Was Generally Successful Despite
                   the Challenges of Late and Unexpected Tax Legislation



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Russell P. Martin, Director
Gary L. Young, Audit Manager
Tina M. Parmer, Lead Auditor
Steven E. Vandigriff, Senior Auditor
Lawrence N. White, Senior Auditor
Bonnie G. Shanks, Auditor
Joseph C. Butler, Information Technology Specialist




                                                                                   Page 20
                  The 2008 Filing Season Was Generally Successful Despite
                   the Challenges of Late and Unexpected Tax Legislation



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division, SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 21
                         The 2008 Filing Season Was Generally Successful Despite
                          the Challenges of Late and Unexpected Tax Legislation



                                                                                  Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.
For all of the outcomes listed in this appendix, we conducted computer analyses of TY 2007
individual income tax returns.1 The returns were processed by the IRS Submission Processing
sites between January 1 and May 30, 2008, and were posted to the Individual Master File. We
developed specific criteria to identify returns affected by the new tax law changes covered in this
review. We used further computer analyses and auditor evaluation of return data to determine if
the IRS accurately processed individual tax returns during the 2008 Filing Season.

Type and Value of Outcome Measure:
•     Revenue Protection – Potential; $1.36 million from 4,988 taxpayers who improperly claimed
      and were allowed the QMIP deduction (see page 7).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 4,988 taxpayers who improperly claimed and were
allowed more than $7.4 million in QMIP deductions. Assuming that all of these taxpayers
received an improper tax benefit from only the QMIP deduction, the estimated revenue loss is
$1,362,035.
To determine the tax effect, we used the calculation tool at the following address:
http://www.moneychimp.com/features/tax_brackets.htm. For each filing status, we determined
that the QMIP allowed and the average taxable income. Using the calculation tool, we took the
average taxable income for the filing statuses and calculated a tax amount. The average taxable
income was then divided by the calculated tax amount for each filing status to identify the
average tax rate for each filing status. This tax rate was applied to the amount of QMIP claimed
and allowed for each filing status and totaled an overall tax effect of $1,362,035. The average
tax rate was figured by dividing the overall tax effect ($1,362,035) by the QMIP improperly
allowed ($7,432,443) for a tax rate of 18.3 percent.




1
    See Appendix VI for a glossary of terms.
                                                                                           Page 22
                       The 2008 Filing Season Was Generally Successful Despite
                        the Challenges of Late and Unexpected Tax Legislation



Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $584,225 from 1,779 taxpayers who improperly claimed and
    were allowed the IRA deduction (see page 8).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 1,779 taxpayers age 70½ or older who improperly
claimed and were allowed nearly $3.9 million in IRA deductions.2 Assuming that all of these
taxpayers received an improper tax benefit from only the IRA deduction, the estimated revenue
loss is $584,225.3

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 1.8 million taxpayers, entitled to an estimated
    $438 million in tax refunds, who did not claim the State sales tax deduction in TY 2007
    (see page 10).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify approximately 1.8 million taxpayers who had itemized
their deductions, were eligible to claim the State sales tax deduction, and had not claimed the
deduction. They are entitled to file amended returns and claim the sales tax deduction.
We determined that the average dollar amount of the sales tax deduction claimed was $1,640 for
taxpayers living in the States with no State income tax in TY 2007. By applying the average to
the approximately 1.8 million eligible taxpayers who did not take the deduction, we determined
that the taxpayers are entitled to potentially $2.9 billion in missed deductions. If these taxpayers
file amended tax returns, they might be entitled to as much as $438 million in tax refunds based
on a conservative 15 percent tax rate.4

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $1.6 million from 3,911 taxpayers who erroneously claimed
    and were allowed more than $10.7 million in tuition and fees deductions (see page 14).



2
  These exceptions did take into account the age of the spouse if the taxpayers filed as Married Filing Jointly.
3
  We used a conservative tax rate of 15 percent to compute the estimated revenue loss (i.e., 15 percent times
$3,894,830 of IRA deductions equals $584,225).
4
  We identified 1,780,985 taxpayers that did not claim the sales tax deduction. The average deduction claimed was
$1,639.52 which entitles the taxpayers to potentially $2,919,960,527 in missed deductions. We then used the
15 percent tax rate to compute the estimated tax refund (i.e., 15 percent times $2,919,960,527 of missed deductions
equals $437,994,079).
                                                                                                           Page 23
                       The 2008 Filing Season Was Generally Successful Despite
                        the Challenges of Late and Unexpected Tax Legislation



Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 3,911 taxpayers who claimed Education Credits of
approximately $3.9 million and tuition and fees deductions of more than $10.7 million.
Assuming that all 3,911 taxpayers received an erroneous tax benefit from only the tuition and
fees deduction, the estimated revenue loss is more than $1.6 million.5 Because the tax law
prohibits taxpayers from claiming both the tuition and fees deduction and the Education Credit
for the same individual in the same year, the tuition and fees deduction is not allowable.




5
 We used a conservative tax rate of 15 percent to compute the estimated revenue loss (i.e., 15 percent times
$10,757,182 of tuition and fees deductions equals $1,613,577).
                                                                                                           Page 24
                         The 2008 Filing Season Was Generally Successful Despite
                          the Challenges of Late and Unexpected Tax Legislation



                                                                                   Appendix V

    Overview of Tax Law Provisions and Administrative
          Changes Examined During the Review

The following information describes various tax law provisions and other changes that affected
TY 2007 individual income tax returns1 processed during the 2008 Filing Season. We
determined whether returns affected by the various provisions were accurately processed in
accordance with the law.

Pension Protection Act of 20062
This Act contained the following provisions:
Section 833(a) – AGI Limit for Retirement Savings Contributions Credit Increased. The AGI
limits for the Retirement Savings Contributions Credit, now subject to inflation, were increased.
In addition, the Credit was made permanent. For TY 2007, a taxpayer might be able to claim the
Retirement Savings Contributions Credit if his or her AGI is not more than:
           •   $52,000 for Married Filing Jointly.
           •   $39,000 for Head of Household.
           •   $26,000 for Single, Married Filing Separately, or Qualifying Widow(er).
Section 833(b) – Modified AGI Limit for Traditional IRA Contributions Increased.
The modified AGI limits for contributions to a traditional IRA, now subject to inflation, were
increased. For TY 2007, if a taxpayer is covered by a retirement plan at work, the deduction for
2007 contributions to a traditional IRA is reduced (phased out) if modified AGI is:
           •   More than $83,000 but less than $103,000 for Married Filing Jointly or Qualifying
               Widow(er).
           •   More than $52,000 but less than $62,000 for Single or Head of Household.
           •   Less than $10,000 for Married Filing Separately.




1
    See Appendix VI for a glossary of terms.
2
    Pub. L. No. 109-280, 120 Stat. 780.
                                                                                           Page 25
                         The 2008 Filing Season Was Generally Successful Despite
                          the Challenges of Late and Unexpected Tax Legislation



Section 833(c) – Modified AGI Limit for Roth IRA Contributions Increased.
The modified AGI limits for contributions to a Roth IRA, now subject to inflation, were
increased.
           •   For Married Filing Jointly or Qualifying Widow(er) taxpayers, the contribution limit
               was reduced (phased out) when modified AGI exceeds $156,000. A taxpayer whose
               modified AGI exceeds $166,000 cannot make a Roth IRA contribution.
           •   A Married Filing Separately taxpayer cannot make a Roth IRA contribution if the
               taxpayer 1) lived with his or her spouse at any time during the year and had a
               modified AGI of more than $0 or 2) did not live with his or her spouse at any time
               during the year and had a modified AGI of more than $10,000.
           •   For all other taxpayers, the Roth IRA contribution limit was reduced (phased out)
               when the modified AGI exceeds $99,000. Once the modified AGI exceeds $114,000,
               these taxpayers cannot make Roth IRA contributions.

Tax Relief and Health Care Act of 20063
This Act contained the following provisions:
Section 302 – Rollovers From a Health Reimbursement Arrangement or Health Flexible
Spending Arrangement Into an HSA. A taxpayer’s employer can make a one-time rollover of
the balance (or less) of Health Reimbursement Arrangement or Health Flexible Spending
Arrangement funds into an HSA.
Section 303 – Repeal of Annual Deductible Limitation on HSA Contributions. The maximum
HSA deduction increased to $2,850 ($5,650 for family coverage) regardless of the amount of
health insurance deductible.
Section 305 – HSA Contribution Limitation Not Reduced for Part-Year Coverage. Taxpayers
who become covered under a High-Deductible Health Plan in a month other than January are
deemed to be eligible during the last month of the taxable year to make the full deductible HSA
contribution for the year, as if they had been covered under the High-Deductible Health Plan for
the entire year.
Section 402 – Credit for Prior Year Minimum Tax. An individual’s minimum tax credit
allowable for any taxable year beginning before January 1, 2013, is not less than the “AMT
refundable credit amount,” which is the greater of:
           •   20 percent of the long-term unused minimum tax credit.
           •   The lesser of $5,000 or the long-term unused minimum tax credit.


3
    Pub. L. No. 109-432, 120 Stat. 2922.
                                                                                             Page 26
                       The 2008 Filing Season Was Generally Successful Despite
                        the Challenges of Late and Unexpected Tax Legislation



Section 419 – Mortgage Insurance Premium Deduction. Premiums paid or accrued for “qualified
mortgage insurance” during 2007 (only) with respect to home acquisition debt on a qualified
home are deductible as an itemized deduction. The deductible amount is reduced by 10 percent
for every $1,000 ($500 for Married Filing Separately) by which AGI exceeds $100,000
($50,000 for Married Filing Separately). No deduction is allowed once AGI exceeds $109,000
($54,500 for Married Filing Separately).

Tax Increase Prevention Act of 20074
This Act contained the following provision:
Sections 2 and 3 – Extension of Increased AMT Exemption Amount and Non-Refundable
Personal Credits. The laws extending increased AMT exemption amounts [I.R.C. Section (§)
55(d)(1)5] and retaining the application of nonrefundable personal credits against the AMT
[I.R.C. Section (§) 26(a)(2)6] expired on December 31, 2006. For TYs 2007 and later, this meant
that AMT exemption amounts would drop back to pre-2003 figures and cause an estimated
25 million more taxpayers to be subject to the AMT. To relieve this additional tax burden,
Congress devised an “AMT patch” and passed the Tax Increase Prevention Act in late 2007.
Section 2 of this Act extended and increased the AMT exemption amounts for TY 2007 and
Section 3 of this Act retained the application of nonrefundable personal credits against the AMT.
Prior to December 31, 2006, the AMT exemption amounts were $62,550 for Married Filing
Jointly or Qualifying Widow(er), $42,500 for Single or Head of Household, and $31,275 for
Married Filing Separately. Without the “patch,” the AMT exemption amounts would have
dropped to $45,000 for Married Filing Jointly or Qualifying Widow(er), $33,750 for Single or
Head of Household, and $22,500 for Married Filing Separately. This Act increased the
exemption amounts to $66,250 for Married Filing Jointly or Qualifying Widow(er), $44,350 for
Single or Head of Household, and $33,125 for Married Filing Separately.

Economic Stimulus Act of 20087
This Act contained the following provision:
Section 101 – Recovery Rebates for Individuals. The Economic Stimulus Act of 2008, signed on
February 13, 2008, was passed to energize the national economy. This legislation provides a
stimulus payment generally ranging from $300 to $1,200 to more than 130 million people.
Individuals can receive up to $600, and couples can receive up to $1,200, with an additional



4
  Pub. L. No. 110-166, 121 Stat. 2461.
5
  26 U.S.C. § 55 (2006).
6
  26 U.S.C. §26 (2006).
7
  Pub. L. No. 110-185, 122 Stat. 613. We are performing a series of reviews to assess all aspects of IRS’ planning
for and issuance of stimulus payments.
                                                                                                           Page 27
                      The 2008 Filing Season Was Generally Successful Despite
                       the Challenges of Late and Unexpected Tax Legislation



$300 for each qualifying child. To receive a stimulus payment individuals must file a 2007 tax
return with a valid Social Security Number.

Cost-of-Living (Inflation) Adjustments for TY 2007
Revenue Procedure 2006-538 contained the following inflation-adjusted items:
Earned Income Tax Credit Amounts Increased.
      a.    The maximum amount of earned income and AGI a taxpayer can have and still get
            the Earned Income Tax Credit are higher for TY 2007 than they were for TY 2006.
            Taxpayers might be able to take the Credit if they:
            •    Have more than 1 qualifying child and earn less than $37,783 ($39,783 if Married
                 Filing Jointly).
            •    Have 1 qualifying child and earn less than $33,241 ($35,241 if Married Filing
                 Jointly).
            •    Do not have a qualifying child and earn less than $12,590 ($14,590 if Married
                 Filing Jointly).
      b.    The maximum amount of investment income a taxpayer can have in 2007 and still get
            the Credit increased to $2,900.
Increases in the Standard Deduction and Exemption Amounts. For TY 2007, the standard
deduction amounts under I.R.C. § 63(c)(2)9 were increased to $5,350 for Single or Married Filing
Separately, $7,850 for Head of Household, and $10,700 for Married Filing Jointly or Qualified
Widow(er).
Personal Exemption. For TY 2007, the personal exemption under I.R.C. § 151(d)10 is $3,400.




8
  Rev. Proc. 2006-53, 2006-48 I.R.B. 996 (11-27-2006).
9
  26 U.S.C. § 63 (2004).
10
   26 U.S.C. § 151 (2004).
                                                                                          Page 28
                 The 2008 Filing Season Was Generally Successful Despite
                  the Challenges of Late and Unexpected Tax Legislation



                                                                             Appendix VI

                            Glossary of Terms

Above-the-line           Refers to a deduction that is taken directly on a U.S. Individual
Deduction                Income Tax Return (Form 1040) rather than on the Itemized
                         Deductions (Schedule A). Consequently, this type of deduction
                         can be taken by taxpayers who do not itemize their deductions.
Adjusted Gross Income    Calculated after certain adjustments are made but before
                         standard or itemized deductions and personal exemptions are
                         subtracted.
Earned Income Tax        A refundable Federal tax credit for low-income working
Credit                   individuals and families.
Error Resolution         Provides for the correction of errors associated with input
System                   submissions. The error inventory is managed on an Error
                         Resolution System database, and corrected documents are
                         validated by Generalized Mainline Framework modules.
Filing Season            The period from January 1 through April 15 when most
                         individual income tax returns are filed.
Free File Program        An online tax preparation and electronic filing program offered
                         through a partnership agreement between the IRS and the Free
                         File Alliance, LLC.
Generalized Mainline     Validates and perfects data from a variety of input sources
Framework                (e.g., tax returns, remittances, information returns, and
                         adjustments). Updated transactions are controlled, validated, and
                         corrected.
Individual Master File   The IRS database that maintains transactions or records of
                         individual tax accounts.
Individual Paper and     U.S. Individual Income Tax Returns (Forms 1040 and 1040A)
Electronic Returns       and Income Tax Returns for Single and Joint Filers With No
                         Dependents (Form 1040EZ).




                                                                                       Page 29
                The 2008 Filing Season Was Generally Successful Despite
                 the Challenges of Late and Unexpected Tax Legislation



Individual Return       The Individual Return Transaction File contains data transcribed
Transaction File        from initial input of the original individual tax returns during
                        return processing.
Legislative             An Intranet-based planning and monitoring system for
Implementation          implementation of tax legislation.
Tracking System
Modified Adjusted       Calculated without regard to certain deductions or exclusions,
Gross Income            unlike Adjusted Gross Income.
Program Completion      The date determined by the IRS for the completion of any
Date                    program. Completion dates are set for processable returns
                        received by specific dates, including timely, prior period, and
                        delinquent returns.
Submission Processing   Process paper and electronic submissions, correct errors,
sites                   and forward data to the Computing Centers for analysis and
                        posting to taxpayer accounts. These sites are located in
                        Andover, Massachusetts; Atlanta, Georgia; Austin, Texas;
                        Fresno, California; and Kansas City, Missouri.




                                                                                     Page 30
     The 2008 Filing Season Was Generally Successful Despite
      the Challenges of Late and Unexpected Tax Legislation



                                                  Appendix VII

Management’s Response to the Draft Report




                                                         Page 31
The 2008 Filing Season Was Generally Successful Despite
 the Challenges of Late and Unexpected Tax Legislation




                                                    Page 32
The 2008 Filing Season Was Generally Successful Despite
 the Challenges of Late and Unexpected Tax Legislation




                                                    Page 33
The 2008 Filing Season Was Generally Successful Despite
 the Challenges of Late and Unexpected Tax Legislation




                                                    Page 34
The 2008 Filing Season Was Generally Successful Despite
 the Challenges of Late and Unexpected Tax Legislation




                                                    Page 35
